HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by York
Hospital for Fiscal Years 2001 and 2002,"(A-04-04-06002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental Residents Claimed by York
Hospital for Fiscal Years 2001 and 2002," (A-04-04-06002)
January 23, 2006
Complete
Text of Report is available in PDF format (377 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether York Hospital included the appropriate
number of dental residents in its full-time equivalent (FTE) counts when computing Medicare
graduate medical education payments for fiscal years (FYs) 2001 and 2002.  The Hospital
generally included the appropriate number of dental residents in its FTE counts.  However,
the number of FTE residents claimed included didactic, i.e., classroom, time for the residents
when working in nonhospital settings.  We recommended that the Hospital work with CMS
to resolve the $579,977 for the didactic time of residents assigned to nonhospital settings.  In
comments, the Hospital stated that, although the didactic time was claimed based on a CMS
letter providing general guidance on this matter, the Hospital concurred with our recommendation.